                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION




                                              LONGSHORE AND HARBOR WORKERS’
Office of Inspector General—Office of Audit




                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2008 and 2007




                                               This report was prepared by KPMG, LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.




                                                                                     __________________________
                                                                                      Assistant Inspector General for Audit




                                                                                  Date:         February 20, 2009
                                                                                  Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                         LONGSHORE AND HARBOR WORKERS’
                          COMPENSATION ACT SPECIAL FUND


                                      Table of Contents



                                                                                          Page
ACRONYMS                                                                                     iii
Management’s Discussion and Analysis
    Mission and Organizational Structure                                                     1
    Financial Highlights                                                                     1
    Performance Goals and Results                                                            2
    Internal Controls and Systems                                                            3
    Known Risks and Uncertainties                                                            4
    Limitations of the Financial Statements                                                  4
Independent Auditors’ Report                                                                 7
FINANCIAL STATEMENTS
    Balance Sheets                                                                          11
    Statements of Net Cost                                                                  12
    Statements of Changes in Net Position                                                   13
    Statements of Budgetary Resources                                                       14

NOTES TO THE FINANCIAL STATEMENTS
    Note 1 – Summary of Significant Accounting Policies                                     15
    Note 2 – Funds with U.S. Treasury                                                       18
    Note 3 – Investments                                                                    19
    Note 4 – Accounts Receivable, Net                                                       20
    Note 5 – Other Liabilities                                                              21
    Note 6 – Transfers to OWCP                                                              22
    Note 7 – Status of Budgetary Resources                                                  22
    Note 8 – Reconciliation of Budgetary Resources Obligated
             to Net Cost of Operations                                                      23
    Note 9 – Concentration of Risk                                                          23




i                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-09-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                            ii
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                         LONGSHORE AND HARBOR WORKERS’
                          COMPENSATION ACT SPECIAL FUND


                                          Acronyms



AUP          Agreed Upon Procedures
DCCA         District of Columbia Workmen’s Compensation Act
DLHWC        Division of Longshore and Harbor Workers’ Compensation
DOL          Department of Labor
ESA          Employment Standards Administration
FY           Fiscal Year
LHWCA        Longshore and Harbor Workers’ Compensation Act
OMB          Office of Management and Budget
OWCP         Office of Workers’ Compensation Programs
U.S.C.       United States Code




iii                                           U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-09-004-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report




                    THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                             iv
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                             September 30, 2008 and 2007


Mission and Organizational Structure

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical
benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases or death of private-sector workers in certain maritime and related employment.
Generally, benefits are paid directly from private funds by an authorized self-insured
employer or through an authorized insurance carrier. Cases meeting the requirements of
the Longshore and Harbor Workers’ Compensation statute are paid from the Longshore
and Harbor Workers’ Compensation Act Special Fund (the Fund) comprised primarily of
employer contributions (assessments) and administered by the Division of Longshore
and Harbor Workers’ Compensation (DLHWC). In fiscal year (FY) 2008 and 2007, 4,533
and 4,728 injured workers and dependents received compensation benefits from the
Fund.

The reporting entity is the Fund. Organizationally the Fund is administered by the
Employment Standards Administration (ESA), an agency within the United States
Department of Labor (DOL). Within ESA, the DLHWC has direct responsibility for
administration of the Fund. The Fund supports the program mission by providing
compensation, and in certain cases, medical care payments to employees disabled from
injuries which occurred on the navigable waters of the United States, or in adjoining
areas used for loading, unloading, repairing, or building a vessel. The Fund also extends
benefits to dependents if any injury resulted in the employee’s death.

Additionally, Section 10(h) of the LHWCA provides annual wage increase compensation
(cost of living adjustments). Fifty percent of this annual wage increase for pre-1972
compensation cases is paid by Federal appropriated funds, and fifty percent is paid by
the Fund through the annual assessment. Appropriated funding for Section 10(h) is not
reflected in the accompanying financial statements. Appropriated funding is reflected in
the Federal Employees Compensation Act’s Special Benefit Fund.

Administrative services for operating the Fund are provided by the ESA through direct
Federal Appropriations. Appropriated funding for administrative services is not reflected
in the accompanying financial statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled

1                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-09-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2008 and 2007


$126,784,708 in fiscal year 2008 and $128,650,318 for fiscal year 2007. During fiscal
years 2008 and 2007, recoveries were made for the Fund due to activities involving the
application of Agreed Upon Procedures (AUP) on Forms LS-513, Report of Payments
(used in the calculation of the annual assessment), and negotiation/collection of past due
assessments. The AUP program recovered $410,145 in fiscal year 2008 and $2,133,496
in fiscal year 2007 for the Fund. These recoveries have and will continue to reduce
carrier assessments and are reflected in the Assessments line on the Statement of
Changes in Net Position.

Investment income for the Fund was $1,045,091 for fiscal year 2008 compared to
$2,077,374 for fiscal year 2007. The average interest rate earned during fiscal year 2008
was 2.68% compared to 5.12% for fiscal year 2007. The Fund’s costs remained relatively
stable compared to fiscal year 2007; $130,084,569 for fiscal year 2008 compared to
$129,041,381 for fiscal year 2007.

The sources of payments into the Fund include: fines and penalties levied under the Act;
payments by employers of $5,000 for each death case where there is no survivor entitled
to the benefits; interest payments on Fund investments; and, by far the largest source,
payment of annual assessments by self-insured employers and insurance carriers.

Proceeds of the Special Fund are used for payments under: section 8(f) for second
injury claims; section 10(h) for initial and subsequent annual adjustments in
compensation for permanent total disability or related death from injuries which occurred
prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for
the procurement of medical and vocational rehabilitation services for permanently
disabled employees and to provide a maintenance allowance to workers undergoing
rehabilitation; section 18(b) for compensation to injured workers in cases of employer
default; and section 7(e) for the cost of certain medical examinations.

Performance Goals and Results

The DLHWC supports the Department of Labor’s Strategic Goal 4 – Strengthened
Economic Protections. This goal broadly promotes the economic security of workers and
families. In particular, the DLHWC program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in




U.S. Department of Labor—Office of Inspector General                                       2
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2008 and 2007


ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The Longshore program assists in meeting this
outcome goal by establishing the long term performance goal of reducing the average
time required to resolve disputed issues in Longshore and Harbor Workers’
Compensation Program contested cases. The objective of this indicator is to quickly
resolve disputes, enabling earlier benefit delivery and reducing litigation costs.

In FY 2008, the average time to resolve disputed issues in Longshore claims was 239
days, representing a 2.4% improvement over the target of 245 days. The average time
to resolve disputed issues in FY 2007 was 230 days, a 7.3% improvement over the target
of 248 days.

Longshore management continues to focus on improving mediation skills and timeliness
of district office intervention when disputes arose, with added emphasis on the accuracy
of dispute tracking data.

Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management and Insurance is a very small unit comprised of six employees and one
supervisor, all working in very close proximity to each other. Unethical behavior is
guarded against by carefully segregated duties, carefully assigned roles which are
password protected, and by close supervision. Much of the oversight, evaluation,
monitoring, and control and almost all of the supervisory activity is informal, done on a
face-to-face basis. Similarly, each of the district offices is in itself a small unit, operating
in the same fashion as the Branch of Financial Management and Insurance.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.

Statutes provide the formal standards where these are applicable, such as privacy
statutes, cash handling procedures and conflict of interest regulations. All codes,
statutes, and regulations governing the conduct of Federal employees apply to all
Longshore Division employees.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what

3                                           U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-09-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2008 and 2007


payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash basis statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Known Risks and Uncertainties

The Longshore Special Fund is the single largest payer of indemnity payments under the
Longshore Act. It pays more than double the next largest payer of benefits. Although
there are nearly 600 authorized insurance carriers and self-insured employers, benefit
payments are concentrated among a relatively few. For example, the top 10 carriers and
self-insurers alone pay almost one-half of total industry payments excluding Special Fund
payments. If a major carrier or self-insurer fails, the remainder would face substantially
increased assessments.

The Special Fund is assessed one year at a time for current expenses. There are no
reserve funds for future Special Fund obligations. A series of high value single payment
claims, for example a large number of hearing loss claims resolved in the private sector,
could exceed the predictions used to quantify the assessment. A single, very large claim
from an uninsured, bankrupt employer could have the same effect. Temporary collection
issues could result, necessitating special, unscheduled assessments or other actions to
keep the Special Fund funded for current liabilities.

There are currently no known examples of these risks and uncertainties.

Limitations of the Financial Statements

The following limitations are part of the financial statements:

•   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, United States Code (U.S.C.) 3515 (b).




U.S. Department of Labor—Office of Inspector General                                       4
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2008 and 2007


•   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by the Office of Management and Budget
    (OMB), the statements are different from the financial reports used to monitor and
    control budgetary resources which are prepared from the same books and records.
•   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.




5                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                       6
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                          KPMG LLP
                          2001 M Street, NW
                          Washington, DC 20036




                           Independent Auditors’ Report

Mr. John R. Correll, Deputy Assistant Secretary for Operations
Employment Standards Administration
U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) Longshore and Harbor Workers’ Compensation Act Special Fund
(the Fund) as of September 30, 2008 and 2007, and the related statements of
net cost, changes in net position, and budgetary resources (hereinafter referred
to as “financial statements”) for the years then ended. The objective of our audits
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2008 audit, we also considered the Fund’s
internal controls over financial reporting and tested the Fund’s compliance with
certain provisions of applicable laws and regulations that could have a direct and
material effect on these financial statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the years ended September 30, 2008
and 2007, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

Our consideration of internal control over financial reporting would not
necessarily disclose all matters in the internal control that might be material
weaknesses as defined in the Internal Control Over Financial Reporting section
of this report. However, we noted no matters involving the internal control and its
operation that we considered to be material weaknesses as defined in this report.

The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal controls over financial reporting; our tests
of the Fund’s compliance with certain provisions of applicable laws and
regulations; and management’s and our responsibilities.


7                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-004-04-432
                           KPMG LLP, a U.S. limited liability partnership, is the U.S.
                           member firm of KPMG International, a Swiss cooperative.
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report




OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2008 and 2007, and the related statements of net cost, changes
in net position and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s
Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2008 and 2007, and its net costs, changes in net position, and
budgetary resources for the years then ended, in conformity with U.S. generally
accepted accounting principles.

The information in the Management’s Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the
limited purpose described in the Responsibilities section of this report and would
not necessarily identify all deficiencies in the internal control over financial
reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their
assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a control deficiency, or combination of control
deficiencies, that adversely affects the Fund’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally
accepted accounting principles such that there is more than a remote likelihood
that a misstatement of the Fund’s financial statements that is more than
inconsequential will not be prevented or detected by the Fund’s internal control.
A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected by the
Fund’s internal control.

In our fiscal year 2008 audit, we did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses as
defined above.

U.S. Department of Labor—Office of Inspector General                                 8
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




COMPLIANCE AND OTHER MATTERS

The results of certain of our tests of compliance described in the Responsibilities
section of this report disclosed no instances of noncompliance or other matters
that are required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04.


                                       * * * * *

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control; and complying
with laws and regulations applicable to the Fund.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2008 and 2007 financial statements of the Fund based on our audits.
We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

•   Assessing the accounting principles used and significant estimates made by
    management; and

•   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.




9                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 22-09-004-04-432
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report




In planning and performing our fiscal year 2008 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on
the financial statements. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to express an opinion on
the effectiveness of the Fund’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Fund’s
internal control over financial reporting.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2008 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws and regulations applicable to the Fund.
However, providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the United States
Department of Labor’s management, Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to
be and should not be used by anyone other than these specified parties.




February 11, 2009




U.S. Department of Labor—Office of Inspector General                              10
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2008 and 2007


                           Assets                                    2008               2007
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                          $      735,164           153,564
   Investments (Note 3)                                           61,905,000        69,979,000
   Accounts receivable (Note 4)                                           —             15,512
            Total intra-governmental assets                       62,640,164        70,148,076
Accounts receivable, net of allowance (Note 4)                   7,970,749           3,802,861
           Total assets                                       $ 70,610,913          73,950,937
               Liabilities and Net Position
Liabilities:
  Accrued benefits payable                                    $    4,570,584         3,655,366
  Deferred revenue                                                31,227,620        31,292,449
  Other liabilities (Note 5)                                       7,568,352         8,115,123
            Total liabilities                                     43,366,556        43,062,938
Net position:
  Cumulative results of operations                              27,244,357          30,887,999
            Total liabilities and net position                $ 70,610,913          73,950,937


See accompanying notes to financial statements.




11                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-09-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report



                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                       Statements of Net Cost
                            Years ended September 30, 2008 and 2007

                                                                       2008                2007
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                      $ 119,131,585         117,001,637
  Wage increase compensation, Section 10(h)                         1,672,889           1,796,225
  Compensation payment for self-insurer in default,
    Section 18(b)                                                   6,035,016           5,884,937
  Rehabilitation services, Section 39 (c)                           2,330,366           2,645,517
  Bankrupt self-insured employers                                     914,713           1,713,065
            Net cost of operations                              $ 130,084,569         129,041,381


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                              12
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                          Years ended September 30, 2008 and 2007


                                                                   2008                 2007
Cumulative results of operations, beginning               $     30,887,999           30,960,157
Budgetary financing sources:
  Transfers in/out without reimbursement (Note 6)               (2,022,047)           (2,041,885)
  Non-exchange revenues:
    Interest                                                     1,045,091            2,077,374
    Fines and Penalties                                            633,175              283,416
    Assessments                                                126,784,708          128,650,318
            Total non-exchange revenues                        128,462,974          131,011,108
Total financing sources                                        126,440,927          128,969,223
Net cost of operations                                      (130,084,569)          (129,041,381)
            Net position, end of period                   $   27,244,357             30,887,999


See accompanying notes to financial statements.




13                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-09-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report



                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                Statements of Budgetary Resources
                            Years ended September 30, 2008 and 2007


                                                                    2008                 2007
Budgetary resources:
  Unobligated balance, brought forward                      $     66,456,691          67,869,658
  Budget authority
    Appropriations received (assessments)                       122,377,055          130,467,193
    Spending authority from offsetting collections                  143,902               38,741
  Temporary not available pursuant to Public Law                     20,480                   —
           Total budgetary resources                        $   188,998,128          198,375,592
Status of Budgetary Resources:
  Obligations Incurred (Note 7)
     Direct                                                 $   130,928,574          131,918,901
  Unobligated balances - available:
     Apportioned
     Other available - exempt from apportionment                 58,069,554           66,456,691
            Total status of budgetary resources             $   188,998,128          198,375,592
Change in obligated balance:
  Obligated balance, net
    Unpaid obligations, brought forward, October 1          $      3,655,366           5,409,871
  Obligations Incurred, net                                      130,928,574         131,918,901
  Less: Gross Outlays                                           (130,013,356)       (133,673,406)
  Obligated balance, net, end of period
    Unpaid obligations                                      $      4,570,584           3,655,366
Outlays:
 Gross Outlays                                              $   130,013,356          133,673,406
 Less: Offsetting collections                                      (143,902)             (38,741)
 Net outlays                                                $   129,869,454          133,634,665


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                       14
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2008 and 2007


(1)   Summary Of Significant Accounting Policies
      The principal accounting policies which have been followed by the Fund in
      preparing the accompanying financial statements are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund). The Fund is
            administered by the Employment Standards Administration (ESA) which is an
            agency within the United States Department of Labor. Within ESA, the Division
            of Longshore and Harbor Workers’ Compensation has direct responsibility for
            administration of the Fund. The Fund offers compensation, and in certain
            cases, medical care payments to employees disabled from injuries which
            occurred on the navigable waters of the United States, or in adjoining areas
            used for loading, unloading, repairing, or building a vessel. The Fund also
            extends benefits to dependents if any injury resulted in the employee’s death.
            Additionally, the Longshore and Harbor Workers’ Compensation Act [Section
            10(h)] provides annual wage increase compensation (cost of living
            adjustments). Fifty percent of this annual wage increase for pre-1972
            compensation cases is paid by Federal appropriated funds and fifty percent is
            paid by the Fund through the annual assessment. Appropriated funding for
            10(h) is not reflected in the accompanying financial statements. Appropriated
            funding is reflected in the Federal Employees Compensation Act’s Special
            Benefit Fund.

      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund), in
            accordance with U.S. generally accepted accounting principles and the form
            and content requirements of OMB Circular A-136. These financial statements
            have been prepared from the books and records of the Fund. These financial
            statements are not intended to present, and do not present, the full cost of the
            Longshore and Harbor Workers’ Compensation Act Program (Longshore
            Program). In addition to the Fund costs presented in these statements, the full
            cost of the Longshore Program would include certain direct costs of ESA in the

15                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2008 and 2007


           form of salaries and expenses for administration of the Longshore Program
           and allocated costs of ESA and other DOL agencies incurred in support of the
           Longshore Program. The full cost of the Longshore Program is included in the
           Consolidated Financial Statements of the U.S. Department of Labor.
           U.S. generally accepted accounting principles encompass both accrual and
           budgetary transactions. Under accrual accounting, revenues are recognized
           when earned, and expenses are recognized when a liability is incurred.
           Budgetary accounting facilitates compliance with legal constraints on, and
           controls over, the use of federal funds. These financial statements are different
           from the financial reports, also prepared for the Fund pursuant to OMB
           directives, used to monitor the Fund’s use of budgetary resources.
     (c)   Funds with U.S. Treasury
           The Fund does not maintain cash in commercial bank accounts. Cash receipts
           and disbursements are processed by the U.S. Treasury. The Fund balance
           with U.S. Treasury is a trust fund that is available to pay current liabilities and
           finance authorized purchase commitments.
     (d)   Investments
           Investments in U.S. Government securities are reported at cost, net of
           unamortized premiums or discounts, which approximates market value.
           Premiums or discounts are amortized on a straight-line basis, which
           approximates the effective interest method. The Fund’s intent is to hold
           investments to maturity, unless they are needed to finance claims or otherwise
           sustain the operations of the Fund. No provision is made for unrealized gains
           or losses on these securities because, in the majority of cases, they are held to
           maturity.




U.S. Department of Labor—Office of Inspector General                                       16
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                       Years ended September 30, 2008 and 2007


     (e)   Accounts Receivable, Net of Allowance
           The amounts due as receivables are stated net of an allowance for
           uncollectible accounts. The allowance is estimated based on past experience
           in the collection of the receivables and an analysis of the outstanding
           balances. Also included as benefit overpayments receivable are Fund benefit
           overpayments made to individuals primarily from amended compensation
           orders and corrections of payment computations.
     (f)   Accrued Benefits Payable
           The Longshore and Harbor Workers’ Compensation Special Fund provides
           compensation and medical benefits for work related injuries to workers in
           certain maritime employment. The Fund recognizes a liability for disability
           benefits payable to the extent of unpaid benefits applicable to the current
           period. It does not include a liability for incurred but not reported claims.
           Ultimate responsibility for payment of such claims rests with the employer
           organizations.
     (g)   Deferred Revenue
           Deferred revenues represent the unearned assessment revenue as of
           September 30, the Fund’s accounting year end. The annual assessments
           cover a calendar year and, accordingly, the portion extending beyond
           September 30 has been deferred. Deferred revenues reported on the balance
           sheets are considered “Other Liabilities” under OMB Circular A-136.
     (h)   Financing Sources Other Than Exchange Revenue
           Non-exchange revenues arise from the Federal government’s power to
           demand payments from and receive donations from the public. Non-exchange
           revenues are recognized by the Fund for assessments and penalties levied
           against the public and interest income from investments.
           The Fund’s primary source of revenue is annual assessments levied on
           insurance carriers and self-insured employers. Assessments are recognized as
           non-exchange revenue when due. Included in assessment revenues in the
           accompany Statement of Changes and Net Position are recoveries of amounts
           based on previously under-reported payments by self-insures or carriers.
           These reassessments primarily result from the application of Agreed Upon
           Procedures (AUP) on reported carrier data. Recoveries amounted to $410,145

17                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2008 and 2007


          and $2,133,496 for the fiscal years ended September 30, 2008 and 2007. The
          Fund receives interest on Fund investments and on Federal funds in the
          possession of non-Federal entities. The Fund also receives revenue from
          penalties assessed in accordance with various sections of the LHWCA.


(2)   Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2008 and 2007 consisted of cash
      deposits of $735,164 and $153,564, respectively. These cash deposits at
      September 30, 2008 and 2007 included $267 and $369, respectively, which are
      being held as security by authority of Section 32 of the Longshore and Harbor
      Workers’ Compensation Act. These funds relate to the default of self-insured
      employers, are available for payment of compensation and medical benefits to
      covered employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2008 consisted of the following:
                                           Entity Assets
                        Unobligated Unobligated    Obligated
                         Balance     Balance      Balance Not    Total    Non-entity
      (In Dolars)        Available Unavailable Yet Disbursed Entity Assets Assets        Total
      Special Fund     $       —           —          735,164  735,164          —       735,164




      Funds with U.S. Treasury at September 30, 2007 consisted of the following:
                                           Entity Assets
                        Unobligated Unobligated    Obligated
                         Balance     Balance      Balance Not    Total    Non-entity
      (In Dollars)       Available Unavailable Yet Disbursed Entity Assets Assets        Total
      Special Fund     $       —           —          153,564  153,564          —       153,564




U.S. Department of Labor—Office of Inspector General                                      18
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                           Years ended September 30, 2008 and 2007




(3)   Investments
      Investments at September 30, 2008 and 2007 consisted of the following:
                                                              September 30, 2008
                                           Face            Premium           Net           Market
      (In Dollars)                         Value          (Discount)        Value          Value
      Intragovernmental securities:
         Marketable                 $    61,905,000             —        61,905,000      61,905,000


                                                              September 30, 2007
                                            Face           Premium           Net            Market
       (In Dollars)                         Value         (Discount)        Value           Value
       Intragovernmental securities:
          Marketable                 $   69,979,000              —        69,979,000      69,979,000

      Investments of $7,296,300 and $7,996,900 at September 30, 2008 and 2007,
      respectively, are being held as security by authority of Section 32 of the Longshore
      and Harbor Workers’ Compensation Act. These investments are available for
      payment of compensation and medical benefits to covered employees of the
      defaulted companies. Investments at September 30, 2008 and 2007 consist of
      overnight securities. Investments at September 30, 2008 bear an interest rate of
      0.33% compared to an interest rate of 3.99% for September 30, 2007. Interest rates
      on securities bought and sold during fiscal year 2008 ranged from 0.25% to 4.95%
      compared to 2.16% to 5.35% for fiscal year 2007.




19                                                 U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 22-09-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                              Notes to the Financial Statements
                        Years ended September 30, 2008 and 2007


(4)   Accounts Receivable, Net
      Accounts receivable at September 30, 2008 and 2007 consisted of the following:
      (In Dollars)                                                2008             2007
      Entity assets:
        Intragovernmental:
            Interest Receivable                             $          —            15,512
            Total Intragovernmental accounts receivable     $          —            15,512

      Benefit overpayments                                  $    2,386,109       2,747,219
      Assessments receivable                                     6,889,971       2,323,263
      Less: allowance for doubtful accounts                     (1,305,331)     (1,267,621)
           Total accounts receivable from the public, net   $   7,970,749        3,802,861


      Assessments receivable represent the unpaid annual assessments from the current
      and prior years. Accounts receivable from overpayments to claimants arise primarily
      from amended compensation orders and corrections of payment computations.
      These receivables are being primarily recovered by partial and total withholding of
      benefit payments.




U.S. Department of Labor—Office of Inspector General                                          20
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                             LONGSHORE AND HARBOR WORKERS’
                              COMPENSATION ACT SPECIAL FUND
                                  Notes to the Financial Statements
                             Years ended September 30, 2008 and 2007


      Changes in the allowance for doubtful accounts during fiscal year 2008 and fiscal
      year 2007 consisted of the following:
                                                                     2008
                               Allowance           Write        Revenue                        Allowance
(In Dollars)                 October 1, 2007       Offs        Adjustment     Bad Debt     September 30, 2008

Entity assets:
  Benefit overpayments $             (686,805)          —             —        (274,027)                (960,832)
  Assessment receivable              (580,816)      82,405            —         153,912                 (344,499)

                         $         (1,267,621)      82,405            —        (120,115)               (1,305,331)



                                                                     2007
                               Allowance           Write        Revenue                        Allowance
(In Dollars)                 October 1, 2006       Offs        Adjustment     Bad Debt     September 30, 2007

Entity assets:
  Benefit overpayments $             (684,031)             —          —          (2,774)                (686,805)
  Assessment receivable              (126,323)             —          —        (454,493)                (580,816)

                         $           (810,354)             —          —        (457,267)               (1,267,621)



(5)   Other Liabilities
      Other liabilities at September 30, 2008 and 2007 consisted of the following current
      liabilities:
       (In Dollars)                                                         2008            2007
       Other liabilities:
         Assessment overpayments by carriers                      $         271,785         117,855
         Defaulted employer liability:
           Held in investments                                         7,296,300           7,996,900
           Held in cash                                                      267                 368
                                                                       7,296,567           7,997,268
                      Total other liabilities                     $    7,568,352           8,115,123


      Assessment overpayments are to be refunded upon request or applied to reduce
      future assessments.


21                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-09-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report

                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                    Notes to the Financial Statements
                            Years ended September 30, 2008 and 2007


      Defaulted employer liability relates to funds and investments held by the Longshore
      Special Fund which are being held as security by authority of Section 32 of the Act.
      These funds and investments are available for compensation and medical benefits
      to covered employees of the defaulted companies.
(6)   Transfers to OWCP
      The Fund reimburses the Office of Workers’ Compensation Programs (OWCP) (a
      related entity within the Employment Standards Administration) for rehabilitation
      services provided to eligible claimants and certain direct expenses associated with
      administrative support of the Fund. Approved transfers out to the OWCP were
      $2,022,047 in 2008 and $2,041,885 in 2007. Transfers are made from the Special
      Fund in accordance with sections 39(c), 44(d), and 44(j) of the Longshore and
      Harbor Workers’ Compensation Act.
(7)   Status of Budgetary Resources
      (a)   Apportionment Categories of Obligations Incurred
             (In Dollars)                                               2008              2007
             Direct Obligations:
                Exempt from apportionment                        $ 130,928,574      131,918,901


      (b)   Explanation of Differences Between the Statement of Budgetary
            Resources and the Budget of the United States Government
            A reconciliation of budgetary resources, obligations incurred and outlays, as
            presented in the Statement of Budgetary Resources to amounts included in the
            Budget of the United States Government for the year ended September 30,
            2007 is shown below:
                                                                              2007
                                                                Budgetary   Obligations
            (Dollars in Millions)                               Resources    Incurred      Outlays
            Statement of Budgetary Resources - LSHW         $       198           132            134
            Statement of Budgetary Resources - DCCA                  17            10            10
            Total Statement of Budgetary Resources                  215           142            144

            Budget of the United States Government          $       215           142            144


U.S. Department of Labor—Office of Inspector General                                                   22
Report Number: 22-09-004-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report


                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                       Years ended September 30, 2008 and 2007


(8)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                  2008               2007
Budgetary resources obligated:
  Obligations incurred                                      $ 130,928,574       131,918,901
Other resources:
  Transfers out                                                (2,022,047)        (2,041,885)
           Total resources used to finance activities         128,906,527       129,877,016
Resources used to finance items not part of the
      net cost of operations
  Resources that finance the acquisition of assets               (143,902)           (38,741)
           Total resources used to finance items not part
             of the net cost of operations                       (143,902)           (38,741)
           Total resources used to finance the net cost
             of operations                                    128,762,625       129,838,275
Components not requiring or generating resources:
  Revaluation of assets and liabilities                           960,833           (263,557)
  Benefit overpayments                                            361,111           (533,337)
           Total components of net cost of operations
             that will not require or generate resources
                 in the current period                          1,321,944          (796,894)
           Net cost of operations                           $ 130,084,569       129,041,381




 (9) Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at
      a time for current expenses; there is no reserve for future Fund obligations. In
      keeping with the requirement of section 44 of the Longshore Act, obligations are
      paid as they are incurred. Assessments are based on compensation and medical
      benefits paid in the prior calendar year.


23                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-004-04-432
